 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


    MASSACHUSETTS MEDICAID
  PAYMENTS TO CALVIN COOLIDGE
   NURSING AND REHABILITATION
CENTER FOR NORTHAMPTON DID NOT
ALWAYS COMPLY WITH FEDERAL AND
      STATE REQUIREMENTS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                  Michael J. Armstrong
                                                Regional Inspector General

                                                        August 2012
                                                       A-01-12-00012
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce its
Medicaid payments to nursing homes. The State agency determines the amount of a
beneficiary’s contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment by the amount of the beneficiary’s contribution, the nursing home could receive
overpayments. Pursuant to Medicaid requirements, the nursing home must return any
overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services (CMS) on its Form CMS-64, Quarterly
Statement of Expenditures for the Medical Assistance Program.

Calvin Coolidge Nursing and Rehabilitation Center for Northampton (Calvin Coolidge), located
in Northampton, Massachusetts, is a Medicare and Medicaid certified facility.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to Calvin
Coolidge in accordance with Federal and State requirements from January 2009 through April
2012.

SUMMARY OF FINDING

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Calvin Coolidge. However, the State agency did not always adjust its Medicaid
per diem payments to Calvin Coolidge by the amount of beneficiaries’ cost-of-care contributions
from resources, such as Social Security and pensions. As a result, the State agency’s Federal
claim was overstated by a total of $25,932 ($15,057 Federal Share). We attributed the incorrect
Medicaid payments to clerical and billing errors.




                                                  i
RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $25,932 from Calvin Coolidge and refund the Federal share
       of $15,057 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

CALVIN COOLIDGE NURSING AND REHABILITATION CENTER FOR
NORTHAMPTON COMMENTS

In written comments on our draft report, Calvin Coolidge agreed with our finding. Calvin
Coolidge’s comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope ........................................................................................................1
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................2

          UNADJUSTED NURSING HOME PAYMENTS .............................................3

          AMOUNT OWED TO THE FEDERAL GOVERNMENT ................................3

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................3

          RECOMMENDATIONS .....................................................................................3

          CALVIN COOLIDGE NURSING AND REHABILITATION CENTER FOR
            NORTHAMPTON COMMENTS .................................................................4

APPENDIXES

          A: MEDICAID OVERPAYMENTS TO CALVIN COOLIDGE NURSING
             AND REHABILITATION CENTER FOR NORTHAMPTON BY
             CALENDAR YEAR

          B: CALVIN COOLIDGE NURSING AND REHABILITATION CENTER FOR
             NORTHAMPTON COMMENTS

          C: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost of care during the financial eligibility process and enters
this amount into its computer system. The beneficiary’s cost-of-care contribution is remitted to
the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its Form
CMS-64, Quarterly Statement of Expenditures for the Medical Assistance Program.

Calvin Coolidge Nursing and Rehabilitation Center for Northampton (Calvin Coolidge), located
in Northampton, Massachusetts, is a Medicare and Medicaid certified facility.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to Calvin
Coolidge in accordance with Federal and State requirements from January 2009 through April
2012.

Scope

For the period January 2009 through April 2012, we reviewed Medicaid accounts that were at
risk for having overpayments. We limited our review of internal controls to obtaining an
understanding of Calvin Coolidge’s procedures for reviewing accounts and reporting
overpayments to the Medicaid program.




                                                1
We performed fieldwork during June 2012 at Calvin Coolidge in Northampton, Massachusetts;
the State agency in Boston, Massachusetts; and the CMS Regional Office in Boston,
Massachusetts.

Methodology

To accomplish our objective, we:

   •   reviewed State and Federal regulations pertaining to overpayments,

   •   worked with Calvin Coolidge officials to identify credit balances in the accounting
       records that were potentially overpayments,

   •   reviewed patient accounts to determine whether overpayments had occurred,

   •   determined the cause of the overpayments, and

   •   coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Calvin Coolidge. However, the State agency did not always adjust its Medicaid
per diem payments to Calvin Coolidge by the amount of beneficiaries’ cost-of-care contributions
from resources, such as Social Security and pensions. As a result, the State agency’s Federal
claim was overstated by a total of $25,932 ($15,057 Federal share). We attributed the incorrect
Medicaid payments to clerical and billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 note that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.




                                                2
UNADJUSTED NURSING HOME PAYMENTS

The State agency made 47 overpayments to Calvin Coolidge from January 2009 through April
2012 (see Appendix A). Specifically, the State agency did not adjust its Medicaid payments to
Calvin Coolidge by the amount of beneficiaries’ cost-of-care contributions from resources, such
as Social Security and pensions.

                          An Example of a Medicaid Overpayment

   Mr. S was a patient at Calvin Coolidge nursing home during August 2009. Based on his
   other resources, the State agency calculated Mr. S’s cost-of-care contribution to be $690 a
   month. The State agency determined that the nursing home was entitled to a monthly
   payment of $4,075. Because of Mr. S’s $690 cost-of-care contribution, the State agency
   was responsible for only $3,385 of the $4,075 nursing home costs. However, the nursing
   home received a total of $4,765 ($4,075 from the State agency and $690 from Mr. S). This
   error occurred because the State agency’s computer system did not adjust the payment
   amount by Mr. S’s cost-of-care contribution. The nursing home, therefore, received an
   overpayment of $690 ($4,765 minus $4,075) for Mr. S’s care for the month of August.

AMOUNT OWED TO THE FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to Calvin Coolidge for the period January 2009 through April 2012 was overstated by a total of
$25,932 ($15,057 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 47 incorrectly reimbursed Medicaid payments to clerical and billing errors.
State agency officials informed us that they have recently implemented a new computer system
that will reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $25,932 from Calvin Coolidge and refund the Federal share
       of $15,057 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.




                                               3
CALVIN COOLIDGE NURSING AND REHABILITATION CENTER FOR
NORTHAMPTON COMMENTS

In written comments on our draft report, Calvin Coolidge agreed with our finding. Calvin
Coolidge’s comments are included in their entirety as Appendix B

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               4
APPENDIXES
APPENDIX A: MEDICAID OVERPAYMENTS TO CALVIN
    COOLIDGE NURSING AND REHABILITATION
 CENTER FOR NORTHAMPTON BY CALENDER YEAR

 Calendar    Number of          Total
  Year      Overpayments    Overpayments

   2009          12             8,062

   2010          21            11,215

   2011          5              2,344

   2012          9              4,311

 TOTAL           47            $25,932
             APPENDIX B: CALVIN COOLIDGE NURSING AND REHABILITATION
                       CENTER FOR NORTHAMPTON COMMENTS

548 Elm Street
Northa mpton, MA 01060                  Calvin Coolidge                                           413.58 6.3150
                                                                                                Fax 413 .584.7720
                                        Rehabi litation and Nursin g Center




           July 18,20 12


           Michael J. Armstrong

           Regional Inspector General for Audit Services

           JFK Federal Building

           15 New Sudbury Street, Room 2425

           Boston, MA 02203 



           Re: Report #:A-01-12-00012

           Dr Mr. Armstrong,

          We would like to thank you for the opportunity to comment on the Office
                                                                                   of the Inspector
          General Audit report conducted at Calvin Coolidge Nursing and rehabi
                                                                               litation., Calvin
          Coolidge Nursing and Rehabilitation agrees with the fmding in the report
                                                                                   and have no
          further comment is needed.



          Respectfully,


      ~~  Administrator

          Calvin Coolidge Nursing and Rehabilitation

          548 Elm St

          Northampton, Ma 01060 

                                  APPENDIX C: STATE AGENCY COMMENTS
                                 The Com monw ealth ofMa ssach usett s
                             Executive Office ofHe alth and Hum an Services
                         MassHealth
                                            Office ofMedicaid

                                          One Ashb urton Place

 DEVAL L. PATRICK
                                           Boston, MA 0210 8

      Govern or                                                                                      JUDYANN BIGBY, M.D.
                                                                                                          Secreta ry
TIMOTHY P. MURRAY
.Lieuten ant Govern or                                                                               JULIAN J. HARRIS, M.D.
                                                                                                        Medicaid Directo r
                  July 25, 2012

                  Michael J. Armstrong
                  Regional Inspector General, Audit Services
                  HHS/O IG/OA S
                  Regio n I

                  JFK Federal Building

                  Boston, MA 02203 


                  RE: Audit Report No: A-01-1 2-0001 2

                  Dear Mr. Armstrong:

                  Thank you for the opportunity to review and comm ent on Draft
                                                                                Audit Report No: A-01-12-00012
                  "Massachusetts Medicaid Payme nts to Calvin Coolidge Nursin
                                                                                g and Rehabilitation Center Did
                  Not Always Comply with Federal and State Requirements".

                        Our responses to the report's specific recommendations are as
                                                                                       follows:
                Recom mend ation:
                1) Collect overpayments totaling $25,932 from Calvin Coolidge
                                                                              and refund $15,057, the
                   Federal share of these overpayments, to CMS on the next quarte
                                                                                  rly CMS-64.
               Respo nse: We are in agreem ent with this finding and will follow
                                                                                    the procedures described in
               state Medicaid regulations at 130 CMR 450.237 to collect the
                                                                               overpayments from the provider.
               Under 130 CMR 450.237, the provid er has a due process right
                                                                                to contest the overpayment,
               including the right to request an adjudicatory hearing and judicia
                                                                                  l review.
               MassH ealth will need the OIGs working papers identifying the
                                                                               specific claims in order to
               under take collection of the overpayments, notify Calvin Coolid
                                                                               ge and if required, defend the
               overpa yment amounts should Calvin Coolidge e contest the overpa
                                                                                     yment notice. If Calvin
               Coolid ge does not contest the overpa yment collection or does
                                                                               not prevail in contesting this
               overpayment, MassHealth will ensure that the EOHH S' Federa
                                                                                l Revenue Unit will return the
               Federal share on the appropriate CMS-64.

              Recom mend ation:
              2) Continue agenc y efforts to ensure that Medicaid overpayment
                                                                              s to nursing homes continue to
                 be identified, collected and refunded.

              Respo nse: MassHealth is in agreem ent with this recommenda
                                                                              tion and will ensure that periodic
              reviews and audits con· ue to be conducted to identify, collect
                                                                               and refund overpayments.




              Julian Harris, M.D, M.B.A., M.Sc.

              Medicaid Director 

